-Ill

No.

Supreme Court, U.S.
FILED

AUG 2 h 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

AMRO ELANSART - PETITIONER
VS.
MIATE RAGAZZO. THE 15TH JUDICIAL DISTRICT OF PENNSYLVANIA RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES CIRCUIT COURT OF APPEALS FOR THE THIRD CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Amro Elansari
325 Penwyllt Court
Exton, PA 19341
(484)280 9028
SUBMITTED: August 24, 2021

RECEIVED
AUG 2 7 2021

mBgSBi«gE

(

QUESTIONS PRESENTED
1. Does 14th Amendment Equal Protection apply to Medical Marijuana Card Holders in
the Commonwealth of Pennsylvania?
(Suggested Answer Yes)

1

TABLE OF CONTENTS
JURISDICTION

1

OPINIONS BELOW

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

4

CONCLUSION

5
TABLE OF APPENDICES

APPENDIX A - Decision And Opinion Of The Third Circuit Appeals

A1

APPENDIX B - Decision Of The Third Circuit Denying Reconsideration

B1

APPENDIX C - Decision And Opinion Of The U.S. District Court

Cl

APPENDIX D - Conflicting Supreme Court of Pennsylvania Case

D1

in

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Gass, Bennett, & Koch, et al. v. 52nd Judicial District, Lebanon County

3

STATUTES AND RULES
21 U.S.C. § 202

2

28U.S.C. §1257(a)

1

42 U.S.C. § 1983

3

IV

No.

IN THE
SUPREME COURT OF THE UNITED STATES

AMRO ELANSARI - PETITIONER
VS.
MIATE RAGAZZO. THE 15TH JUDICIAL DISTRICT OF PENNSYLVANIA RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES CIRCUIT COURT OF APPEALS FOR THE THIRD CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgments below.
JURISDICTION
The date on which the Third Circuit decided my case was May 24, 2021. A copy of the
decision and opinion appears at Appendix B..
A timely reconsideration was filed thereafter denied on the following date: July 21, 2021
and a copy of the order denying review appears at Appendix C.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

1

l:

r
?

OPINIONS BELOW
1. The decision and opinion of the highest state court to review the merits, The U.S.
Court of Appeals For The Third Circuit, appears at Appendix B to the petition and is
unpublished.
2. The decision and opinion of the trial court, The U.S. District Court For The Eastern
District of Pennsylvania at Appendix B to the petition and is unpublished.
3. The decision of the U.S. Court of Appeals For The Third Circuit, denying
reconsideration appears at Appendix C to the petition and is unpublished.
4. The decision of the State Supreme Court, The Supreme Court Of Pennsylvania, which
conflicts and was the basis for these federal claims initially, is published and attached
herein as Appendix D..
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following Constitutional and Statutory Provisions are involved:
1. U.S. Constitutional Amendment XIC - Section 1. [Citizens of the United States.]
2. Pennsylvania Civil Rights Law Statutes and Case Law;
3. Any and all other statutes State or federal pertaining to equal protection law use that is
*

relevant in the instant matter.
STATEMENT OF THE CASE
The Petitioner obtained a medical marijuana card in the State of Pennsylvania
which has legalized marijuana despite the same remaining in violation of federal law as a
Control I Substance pursuant to 21 U.S.C. § 802.

2

So when it comes to making money on cannabis in Pennsylvania, the State Government
is ready for business and the federal government is ready to let it slide. However, when it comes
to the equal protection rights of the Petitioner to be treated equally as any other probationer
prescribed medication, the federal government explicitly refuses to acknowledge the same.
Here, the Third Circuit in their opinion explicitly reject the application of equal
protection to the Petitioner Medical Marijuana Card holder which is in direct conflict with the
equal protection clause of the U.S. Constitution veiy clearly and plainly. For this reason, the
Petitioner requests that cert be granted, plainly and simply.
REASONS FOR GRANTING THE PETITION
1. The Third Circuit conflicts with the PA Supreme Court
2. The Third Circuit is explicitly refusing to apply the equal protection clause to a
protected class which is a severe danger to many similarly situated.
3. The decision issued by the Third Circuit is shocking to the conscious in that it refuses
to grant one class of prescription medication holders the same fundamental civil rights
protections and other prescription medication holders which is shocking to say the least,
and this Court should agree.

4

CONCLUSION
For the foregoing reasons, Petitioner respectfully requests that this Court grant his
petition for review.
Dated:

g/zv/2 bti

Respectfully Submitted,

5

